                       INSPECTOR
                       GENERAL
                       Semiannual Report
                       to Congress




U.S. Department of Energy    •   Office of Inspector General




DO E / I G - 0 0 40?   October 1, 2004 – March 31, 2005
Front Cover


Workers install the exterior fabric liner over the steel frame structure at the Pit 4 Retrieval
Enclosure Building in Idaho Falls, Idaho.

From left to right:

An evaporator, shown here at the Hanford site in Richland, Washington, evaporates
water from radioactive liquid waste and crystallizes the chemical salts to form immobile
solid wastes.

A cask at the Waste Encapsulation Storage Facility at the Hanford site is being re-assembled
in preparation for long term storage.

The Fermi National Accelerator Laboratory is one of the world’s foremost laboratories dedi-
cated to high energy physics research. This building houses the administrative functions,
offices and support facilities.

Operators use a push-pull device to remove a standard waste box from the waste transporter
at the Waste Isolation Pilot Plant (WIPP) near Carlsbad, New Mexico.

A transuranic package transporter travels to the WIPP. The tractor-trailer and specialized
containers are designed to safely transport radioactive waste to the WIPP.
                             SEMIANNUAL REPORT TO CONGRESS




                           Table of Contents

Inspector General’s Message . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Significant Investigative Accomplishments . . . . . . . . . . . . . . . . . . .3


Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
    Contract Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
    Environmental Cleanup . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9
    Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
    National Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12
    Project Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15
    Stockpile Stewardship . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16


Other Significant Accomplishments . . . . . . . . . . . . . . . . . . . . . . .17
    Other Significant Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17
    External Peer Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
    Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
    Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20
    Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
    Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
    Intelligence Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
    Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
    Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
    Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23
    Statistical Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29




                                                                  i
U . S . D E PA RT M E N T O F E N E R G Y                                       OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                      ii
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Inspector General’s Message


I
    am pleased to provide the Office of Inspector
    General’s (OIG) Semiannual Report to Congress
    for the period ending March 31, 2005. This
report, issued in accordance with the
provisions of the Inspector General Act of
1978, as amended, highlights our most
significant accomplishments in
identifying areas of Department of
Energy (Department) operations most
vulnerable to waste, fraud, and
mismanagement. Through our work, we
strive to promote positive change by
identifying opportunities for
improvements in the performance and
efficiency of the Department’s programs
and operations.

During this reporting period, we continued to
make significant contributions to the Department’s
mission-related priorities. OIG audits, inspections,
reviews and investigations identified opportunities for cost savings
and operational efficiencies and also returned hard dollars to the Department and the U.S.
Treasury as a result of civil penalties and criminal prosecutions. During this period, we
referred 14 investigations for prosecution and recovered $21,719,622 in fines and
settlements. We also issued 39 audit and inspection reports containing recommendations
                                                       identifying over $371 million in one
                                                       time savings.

                                                    In the coming period, we will continue
                                                    to promote positive change as we look
                                                    forward to working with Secretary of
                                                    Energy Samuel Wright Bodman and his
                                                    team on our common objective of
                                                    improving the performance of
                                                    Departmental operations. In addition
                                                    to our teaming efforts with the
                                                    Department, I was recently appointed
                                                    Vice Chair of the President’s Council



                                             1
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




                               on Integrity and Efficiency (PCIE). Established by
                               Presidential Executive Order, the PCIE’s mission is to
                               coordinate and enhance Government initiatives to
                               promote integrity and efficiency; promote efforts to
                               detect and prevent fraud, waste and abuse; and, increase
                               the professionalism and effectiveness of Federal Inspector
                               General personnel. In my role as Vice Chair, I have
                               learned that the work of the PCIE and its members has
                               a far reaching effect throughout the Federal Government.
                               It is my hope that our leadership role in the PCIE will
                               only enhance our efforts to promote a more effective
                               and efficient Department of Energy.

I am proud of the diligent work of all OIG employees and would like to express
my appreciation for their continued commitment and dedication to serving the
American taxpayers.




                                                    Gregory H. Friedman
                                                    Inspector General




                                            2
OFFICE OF INSPECTOR GENERAL                           U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Significant Investigative
                   Accomplishments
This reporting period, the Office of Inspector General (OIG) has chosen to highlight some
of the significant investigative accomplishments of this office (other investigative results are
discussed throughout the report).


$13 Million Settlement Resolves Allegations that a University
Inappropriately Charged Expenses to the Department
An OIG investigation determined that a university inappropriately charged expenses to the
Department of Energy (Department). The university did not meet its cost matching
requirements and charged unrelated administrative costs and other university project costs
directly to a cooperative agreement held with the Department. As a result of the OIG
investigation, the university agreed to repay $11.5 million and forgo claims against the
Department for another $1.7 million. (I03SR001)


Two Subjects Sentenced for Fraud and Conspiracy
As reported in a prior Semiannual Report, a joint investigation with the Federal Bureau of
Investigation (FBI) that received significant Congressional and media attention determined
that two former Los Alamos National Laboratory (LANL) employees purchased items with
LANL funds for their personal use, including television sets, automobile parts, and barbeque
grills. A Federal grand jury returned a 28-count indictment for fraud, conspiracy, theft of
Government property, and making false statements to investigators. During this reporting
period, one subject was sentenced to 1 year plus 1 day of confinement, 2 years supervised
probation, $39,401 restitution and a $200 special assessment fee. The second subject was
sentenced to 6 months confinement, 6 months of electronically monitored home detention,
2 years supervised probation, a $30,000 fine, $39,401 restitution, and a $200 special
assessment fee. (I02AL017)




                                                3
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




$2.9 Million Civil Settlement Agreement Reached
Regarding Falsified Safety Tests for Cylinders
Sold to Department Laboratories
An OIG investigation determined that a Department contractor and its affiliated companies
falsified test results and other services relating to compressed gas cylinders. The cylinders
were used to store a variety of gases, including hydrogen, oxygen and natural gas. The
contractor and its affiliated companies entered into a $2.9 million civil settlement with the
Department of Justice, Civil Division. The agreement followed an OIG investigation with
other Federal law enforcement agencies of a Qui Tam complaint filed under the False Claims
Act. (I03AL024)



                                     Did you know?
 The False Claims Act (Act) prohibits any person from “knowingly” presenting a “false
 or fraudulent claim for payment or approval” to the Federal Government. The Act
 authorizes individual citizens to bring private suits, referred to as Qui Tam actions, to
 enforce the Act on behalf of the Government.




$1.9 Million Settlement Agreement Reached in
Improper Cost Transfer Allegations
An OIG investigation determined that a prime contractor improperly transferred costs
between projects to cover cost overruns and allowed work to begin before funding was
secured from other Federal agencies. The Department and the prime contractor finalized a
$1.9 million settlement agreement to resolve the allegations. (I95SR004)


Contractor Enters into a $2.6 Million Settlement Agreement to
Resolve Improper Travel Claims
An OIG investigation determined that a prime contractor at the Savannah River site allowed
employees to claim Long-Term Temporary Assignment per diem when they had effectively
relocated their personal residences to the temporary assignment location. The investigation
found that many prime contractor employees relocated themselves and their families to the
temporary assignment duty stations, did not maintain residences in their prior permanent
duty locations, and received travel per diem both at the temporary locations and when they
made business trips back to their permanent duty stations. The OIG investigation resulted
in a $2.6 million settlement agreement between the Department and the prime contractor.
(I97SR006)




                                             4
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Vendor Sentenced for Paying a National Laboratory Employee
for Bid Information
As previously reported, a joint investigation with the FBI determined that a contractor
procurement official received approximately $120,000 from two Lawrence Berkeley
National Laboratory vendors in return for providing the vendors with confidential bid
information. The procurement official pleaded guilty and was sentenced to 3 years
probation and 6 months home confinement, ordered to pay $120,000 in restitution, a
$50,000 criminal fine, and a $100 special assessment fee. The procurement official was
terminated from his position at the laboratory. During this reporting period, one of the
vendors pleaded guilty in U.S. District Court, Northern District of California, to one count
of Title 18 U.S.C. Section 201(c)(1)(A), Bribery of a Public Official, was sentenced to 3
years probation and $1,100 in fines and fees, and was ordered to home confinement with
electronic monitoring for 6 months. (I02LL002)


Former Department Employee Pleads Guilty to Embezzling Funds
An OIG investigation determined that a Department employee, a member of the board
that oversees the Department’s Child Development Center, converted $6,300 in Child
Development Center funds to personal use. The subject, who resigned during the course
of the investigation, fully reimbursed the Department. The subject pleaded guilty to
one count of first degree theft, Title 22 of the District of Columbia Code, Sections 3211
and 3212(a). The subject was sentenced to 2 years supervised probation and was ordered to
perform 50 hours of community service. (I05HQ003)


Laboratory Physicist Sentenced for Two Counts of Theft
As previously reported, a joint investigation with the FBI determined that a physicist at
Lawrence Livermore National Laboratory submitted duplicate time and attendance records
and travel vouchers that resulted in a loss to the Government of nearly $50,000. The
subject pleaded guilty to two counts of Theft, Title 18 U.S.C. Section 641. During this
reporting period, the subject was sentenced to 3 years probation, 6 months home
confinement, $49,600 restitution, a $2,000 fine, and a $200 court assessment fee. The
Department is also considering suspension and debarment of the physicist. (I02LL006)




                                             5
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




                                       Laboratory’s Award Fee Reduced for
                                       Duplicate Travel Reimbursements
                                        An OIG investigation determined that a
                                        Department laboratory employee was reimbursed
                                        certain travel expenses from both the Pacific
                                        Northwest National Laboratory (PNNL) and other
                                        outside employment sources because the laboratory
Pacific Northwest National Laboratory   did not follow applicable reimbursement
                                        procedures. The investigation resulted in the
employee repaying PNNL nearly $1,100. The investigative results were also a factor in the
Department’s reduction of the laboratory’s award fee by $100,000. (I01RL002)




                                            6
OFFICE OF INSPECTOR GENERAL                          U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




                         Management Challenges


A
        s required by the Reports Consolidation Act of 2000, the OIG annually identifies
        the most significant management and performance challenges facing the
        Department. Although the Department has taken significant positive steps to
address the six management challenges identified last year, we continue to consider these
challenges to be the most serious risks facing the Department:

             Internal Control Challenges                           Mission-Related Challenges
              Contract Administration                                Environmental Cleanup
              Information Technology                                    National Security
                Project Management                                    Stockpile Stewardship



Contract Administration
Contractor Home Office Expenses
An OIG audit found that the Department did not always ensure that reimbursements to
contractors were limited to an equitable share of their home office expenses. Our review of
five National laboratory contracts identified questionable fees, fixed payments, and/or home
office expense reimbursements that were (1) potentially duplicative; (2) not adequately
documented; (3) improperly calculated; and/or (4) for specifically unallowable items. As a
result of the lack of adequate financial examination of home office expenses, we estimated
that by the end of Fiscal Year (FY) 2005 the Department will have reimbursed two
contractors about $30 million for unallowable and inappropriate costs. We made
recommendations intended to enhance oversight and recover overpayments. (IG-0676)


                                                       Restoration of the Monticello Mill
                                                       Site at Monticello, Utah
                                                       An OIG audit disclosed that the Department’s
                                                       actions to monitor and control certain aspects of
                                                       the Monticello Mill Site restoration project were
                                                       not completely effective. Restoration was
                                                       completed in August 2001, as required; however,
Original Monticello Mill Site and associated tailing   since that date, the City of Monticello
piles before site preparation begins                   (Monticello) had not adequately maintained the


                                                           7
U . S . D E PA RT M E N T O F E N E R G Y                            OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




site and, as a result, significant erosion had occurred. While the Department took action to
correct erosion problems that were of immediate concern, it did not ensure that Monticello
used funds provided under the agreement for long-term maintenance. Our review
questioned $4.3 million Monticello was permitted to expend for public works projects
unrelated to the restoration project. We concluded that the Department had not properly
structured the cooperative agreement with Monticello nor had it required strict compliance
with certain terms of the agreement. We recommended that the Department seek recovery
of the funds spent for erosion control activities made on behalf of Monticello, and ensure
that cooperative agreements used for future mill site restoration activities are more clearly
structured and complied with so that the public interest is protected. (IG-0665)


Gas Centrifuge Enrichment Plant Cleanup Project at Portsmouth
An OIG audit concluded that the Department will incur Gas Centrifuge Enrichment Plant
Cleanup Project costs for activities not specifically related to cleanup of the Portsmouth site.
We recommended the Department develop a comprehensive baseline containing required
activities and supporting cost information for the project. (IG-0678)


Transmission Capacity Inefficiencies at the
Bonneville Power Administration
                                               An OIG audit found that the use of memo schedules
                                               by the Bonneville Power Administration (BPA) did not
                                               always provide for the efficient utilization of
                                               transmission capacity. During the 2-month period we
                                               examined, certain memo schedule customers either
                                               scheduled more megawatt hours of transmission than
                                               they used or used more than they scheduled. Customers
                                               were not scheduling accurately because BPA had not:
                                               ■   Conducted a thorough examination of its contractual
                                                   agreements to determine its authority to enforce
                                                   more accurate estimates;
                                               ■   Developed a mechanism to require customers to
                                                   more accurately estimate their transmission needs;
                                               ■   Implemented a formal tracking system to permit
                                                   comparison of scheduled transmission to actual usage
                                                   for memo customers; and,
Bonneville Power Administration’s beautified
special transmission structure near
                                               ■   Charged customers for the non-firm transmission
Hood River, Oregon                                 they scheduled but did not use.
Recommendations were made to help BPA ensure that its use of memo schedules provides
for the most efficient use of transmission capacity. (OAS-M-05-01)


                                                         8
OFFICE OF INSPECTOR GENERAL                                         U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Subject Convicted of Possessing Stolen Property
Ordered to Pay Restitution
As previously reported, an OIG investigation determined that a former subcontractor
employee possessed stolen property from the Department’s Hanford site valued at
approximately $25,000. During this reporting period, the subject was ordered to pay
$5,000 in restitution to the Government to offset the costs of investigating the theft and
recovering the stolen property. The former subcontractor employee was subsequently
convicted in a Washington State county court, sentenced to 30 days in jail and 240 hours
of community service, and assessed a variety of monetary penalties. (I02RL007)




Environmental Cleanup

                                             Well Decommissioning Activities at
                                             the Hanford Site Need Improvement
                                                  An OIG audit disclosed that abandoned and
                                                  unused wells at the Hanford site had not been
                                                  decommissioned in a timely manner. Although
                                                  Richland officials estimated that the site had the
                                                  capability to decommission between 104 and 150
Hanford Site - 200 East Area well decommissioning wells per year, only 146 wells were
                                                  decommissioned in the 3-year period from
FY 2002 to 2004. Wells were not decommissioned promptly because Richland had not
developed a comprehensive decommissioning plan that included (1) an inventory that
described the type, age, condition, and location of all wells at the site; (2) a risk-based
scheduling and prioritization; and, (3) an accurate estimate of funding and resources
necessary to complete decommissioning activities. Our recommendations were designed to
address each of these issues and to improve well decommissioning activities at Hanford.
(IG-0670)


Hanford’s Chemical Separation Facilities
An OIG audit disclosed that the Department did not thoroughly evaluate the feasibility and
potential cost savings associated with using one of Hanford’s chemical separation facilities to
dispose of mixed and low-activity waste. As a result, the Department may not realize

        Public reports are available in full text on our website at www.ig.doe.gov


                                                  9
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                        SEMIANNUAL REPORT TO CONGRESS




savings of up to $500 million. The audit report highlighted the importance of the
Department’s oversight of its contractors’ activities to ensure that decisions are based on
reasonable and accurate assumptions. As such, we recommended the Department ensure
the Hanford study is based on complete and accurate data and that the results are
adequately considered and reflected in the Department’s Record of Decision. (IG-0672)


                                               Transuranic Waste Management at
                                               Los Alamos National Laboratory
                                                      An OIG audit concluded that the Department will
                                                      not meet its commitments for removing
                                                      transuranic waste from LANL. Based on current
                                                      projections, the Department will not remove all
                                                      high-risk waste until at least October 2005, about
Certified transuranic waste storage containers at the 10 months behind schedule. We also estimated
Los Alamos National Laboratory                        that the Department is unlikely to remove the
                                                      remaining legacy transuranic waste at the site until
at least 2014 - 4 years beyond the commitment date. Waste disposal commitments will not
be met because LANL did not adhere to waste certification requirements and the
Department did not provide the mobile waste processing equipment necessary for achieving
the accelerated disposal commitments. Unless the Department accelerates processing rates
and recovers schedule slippages, the total cost of completing the transuranic waste
disposition project could increase by over $70 million and take 4 years longer than planned.
(IG-0673)


The Department’s Pollution Prevention Program
An OIG audit found that the Department had not maintained a completely effective
pollution prevention program. In some cases, sites did not systematically research cost-
effective opportunities to reduce waste generation or to increase recycling/reuse of materials.
Additionally, sites did not always implement identified cost-effective measures to reduce
pollution. We recommended that the Department conduct operational assessments, employ
innovative funding strategies, develop performance measures, and hold managers
accountable for implementation. (IG-0680)


Fast Flux Test Reactor Deactivation, Decontamination,
and Decommissioning
An OIG special report found that recent operating changes to the Fast Flux Test Facility
(FFTF) shutdown project could impact the Department’s existing project plan and
acquisition strategy. Specifically, the final end state of the FFTF remains uncertain; the
Environmental Protection Agency and the State of Washington have questioned the priority


                                                   10
OFFICE OF INSPECTOR GENERAL                                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




of the decommissioning work on the facility; significant progress has been made on the
deactivation work under the existing contractual arrangement, making the wisdom of
transitioning to a new contractor problematic at this juncture; and, a number of key
technical personnel have not transitioned to the new contractor as anticipated, raising
obvious concerns about the skill mix of the prospective workforce. Each of these issues,
we believe, should be thoroughly examined as part of a comprehensive re-evaluation of
the Department’s future plans to deactivate, decontaminate, and decommission the FFTF.
(IG-0683)




Information Technology
Financial System Faces Continued Challenges
Successful implementation of the Standard Accounting and Reporting System is vital to the
Department’s ability to provide timely and accurate financial reports. An OIG follow-up
audit report determined that although improvements had been made, significant issues
remain that increase the risk that the Department may not be able to successfully deploy a
fully capable system on schedule. In particular, we found that (1) two separate accounting
systems must be used to produce the consolidated financial statements; (2) accelerated
reporting schedules imposed by the Office of Management and Budget provide only limited
time to correct implementation problems; and, (3) the burden of auditing two separate
systems of controls will severely stress both accounting and audit resources. We
recommended specific actions be taken to resolve testing, controls, and training issues.
(OAS-L-05-02)


Mobile Communications Services Not Optimized
An OIG audit found that the Department had only limited assurance that mobile
communication devices and services were being used and managed in a cost-effective
manner. At three of the eight sites visited, as much as $1.13 million annually could be
saved by adopting more efficient methods for the use and management of communication
devices and services. In particular, the review noted opportunities for improvement
at Headquarters, Lawrence Livermore National Laboratory and at the Y-12 National
Security Complex. (IG-0669)




        Public reports are available in full text on our website at www.ig.doe.gov


                                            11
U . S . D E PA RT M E N T O F E N E R G Y             OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Hackers Guilty of Unauthorized Access to Government Computers
As previously reported, a joint OIG investigation with the FBI and other investigative
agencies established that two individuals gained unauthorized access to multiple unclassified
Government-owned computers, including two web servers at the Department’s Sandia
National Laboratory. The investigation determined that the hackers modified two webpages
on Sandia’s computer network. One subject pleaded guilty to a felony count of Title 18
U.S.C. Section 1030, Fraud and Related Activity in Connection with Computers. During
this reporting period, the subject was sentenced by the U.S. District Court, District of
Columbia, to 1 year home detention, 3 years probation, $135,548 restitution, $200 special
assessment fee, and ordered not to access the Internet for 4 years. The second subject
pleaded guilty in U.S. District Court, Northern District of California (Oakland Division),
to five counts of Title 18 U.S.C. Section 1030 and will be sentenced at a later date.
(I02TC020)


Three Individuals Disciplined for Improperly Selling a
Government-Owned Computer Code
An OIG investigation determined that four employees at Los Alamos National Laboratory
were involved in the improper sales and distribution of a Department-owned computer
code. As a result, the Department recovered $22,278 and took disciplinary action against
three of the individuals. (I03AL009)




National Security
Security and Other Issues Related to the Shipment of Classified
Parts to the Waste Isolation Pilot Plant*
An OIG inspection concluded that the shipment of unsanitized classified weapons parts
and process equipment from the Rocky Flats Environmental Technology Site to the Waste
Isolation Pilot Plant for disposal was not consistent with existing directives for the
handling of this type of material and that some of the security provisions for the classified
material were not consistent with Department security requirements. We made
recommendations to management designed to enhance safeguards and security over the
classified parts and equipment. (IG-0679)

    *This inspection report is not publicly releasable and is not on our website because it
                  contains information that is for OFFICIAL USE ONLY.




                                              12
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




                                                        Measurement of Spent Nuclear Fuel
                                                        Returned from Foreign Countries
                                                        An OIG inspection identified concerns with the
                                                        measurement of spent nuclear fuel returned from
                                                        foreign countries and the coordination with other
                                                        agencies regarding the measurement of the fuel.
                                                        We made recommendations to Department
                                                        management to improve interagency
Train carrying shipment of foreign spent nuclear fuel   communication. (INS-L-05-02)



Unauthorized Handguns on the Nevada Test Site
An OIG inspection found that a Federal employee and a contractor employee violated
Department policies and procedures when they brought Government and privately owned
handguns onto the Nevada Test Site without authorization. Furthermore,
    ■   The Federal employee took his personal weapon to the Test Site to have a contractor
        employee perform repairs on it, an apparent violation of the Federal Standards of
        Ethical Conduct for Employees of the Executive Branch.
    ■   The Government handguns were signed out of a Department armory without following
        requirements for the issuance of firearms; they were passed among several individuals,
        including a private citizen, without following chain-of-custody requirements; and they
        were stored off-site without authorization.
    ■   The Government handguns were from a group of Government firearms relocated from
        one Department armory to another without a determination as to which armory’s
        policies and procedures would apply, which we believe resulted in a loss of weapon
        accountability, inconsistent with fundamental procedures for managing Federal
        arms inventories.

We made several recommendations that were intended to enhance safeguards and security
and weapon controls, as well as to ensure appropriate action was taken with respect to the
employees involved. (IG-0674)


Employee Out-processing Procedures at LANL
An OIG inspection disclosed that more than 40 percent of the terminating employees in
our sample did not follow LANL out-processing procedures. As a result, there was no
assurance that, prior to departure, LANL terminating employees turned in security badges,
completed the required Security Statement, or had their security clearances and access
authorizations cancelled in a timely manner. Further, there was no assurance that



                                                           13
U . S . D E PA RT M E N T O F E N E R G Y                             OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




terminating employees accounted for classified holdings and personal property or cleared
any outstanding financial obligations prior to departure. Subsequent to completion of our
fieldwork, LANL revised its out-processing procedures to address some of the concerns
raised during the inspection. We made several recommendations that were designed to
further enhance safeguards and security and property controls at LANL. (IG-0677)


Department Review of Chemical and
Biological Export License Applications
Our inspection of the Department’s process for reviewing chemical and biological export
license applications concluded that the Department’s license review process is appropriately
assisting the Government in its efforts to deter the proliferation of chemical and biological
commodities that could be used in weapons of mass destruction. However, we did find that
some Department licensing officers were unable to effectively access the export license
application database maintained by the Department of Commerce. We made
recommendations aimed at enhancing the export control review process. (IG-0682)


Management of the Costs for the Department’s
Counterintelligence Inspection Program*
An OIG inspection found that the mechanism used to procure support for the
Department’s counterintelligence inspection program was inconsistent with Department
policy on purchasing by management and operating contractors. Further, in the report we
expressed our concern that there appeared to be significant philosophical operating
differences between officials of the Office of Counterintelligence and the Office of Defense
Nuclear Counterintelligence. We believe that these inconsistencies have the potential to
undermine the effectiveness of the Department’s counterintelligence program. (IG-0671)

   *This inspection report is not publicly releasable and is not on our website because it
                 contains information that is for OFFICIAL USE ONLY.




                                             14
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Project Management
Western Area Power Administration’s Central Valley Project
Transmission Services
An OIG audit found that the Western Area Power Administration (Western) was unable to
furnish all planned transmission services to its Central Valley Project customers by January
2005. We noted that:
   ■   A majority of critical project tasks were behind schedule, including those related to
       power billing, systems integration, and power scheduling; and,
   ■   Western had not developed contingency plans to ensure continued operations in the
       event critical project tasks were not completed as scheduled.

As a result, Western will likely encounter billing and scheduling challenges and incur
increased costs that may be passed on to its customers. We made several recommendations
to improve project management and monitoring and address contingency planning.
(OAS-M-05-02)


Alternative Financing for Office and Support Facilities at Y-12
An OIG audit disclosed a number of challenges to the Department’s implementation of
alternative financing to acquire new office and support facilities at the Y-12 National
Security Complex. We noted differences among the financial instruments supporting the
alternative financing arrangement that need to be resolved in determining whether the lease
can be funded on an annual basis with operating funds under the Office of Management
and Budget’s criteria for operating leases. Our review also disclosed that potential security
issues posed by commercial office space being located in close proximity to secured areas
may not have been adequately evaluated. We recommended that each of these issues be
fully considered and resolved before the proposed transaction is finalized. (OAS-M-05-03)




                                                15
U . S . D E PA RT M E N T O F E N E R G Y                  OFFICE OF INSPECTOR GENERAL
                         SEMIANNUAL REPORT TO CONGRESS




Stockpile Stewardship
                                             Los Alamos Neutron Science Center
                                             An OIG audit determined that the Los Alamos
                                             Neutron Science Center’s (LANSCE) ability to
                                             provide needed research capabilities in the future is
                                             uncertain. Increasing reliability problems coupled
                                             with the lack of a long-term plan detailing funding
                                             and mission priorities increased the risk that
                                             LANSCE may not be capable of operating effectively
Cutaway drawing of the LANSCE complex
                                             in the future. In particular, we observed that:
   ■   Annual beam reliability has declined to 77 percent, which is 8 percent less than the
       standard for similar scientific facilities, and fell to a low of 44 percent in August 2003;
   ■   Major components have become obsolete, are years beyond their expected service lives,
       and could cause a shutdown of up to 1 year while replacements are custom fabricated;
       and,
   ■   Deferred maintenance has accumulated to over $42 million.

We recommended that the Department determine whether LANSCE has a viable mission
and, based on mission determination, develop plans to address upgrades and deferred
maintenance issues or shut down the facility. (IG-0666)


Subcontractor Sentenced for Submitting False Certifications on
Government Contracts
An OIG investigation with other law enforcement agencies determined that over a 3-year
period, a Department subcontractor submitted false certifications to various Government
organizations in connection with heat treatment and quality testing of aluminum alloy
parts. The aluminum was used at LANL to manufacture canisters to hold “pits” during the
production of nuclear weapons. The Department subcontractor pleaded guilty in U.S.
District Court, Central District of California, to seven counts in violation of Title 18 U.S.C.
Section 1001, was sentenced to 2 years probation and was ordered to pay fines and
restitutions valued at $302,800. (I02HQ021)




                                                 16
OFFICE OF INSPECTOR GENERAL                                 U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                    Other Significant
                    Accomplishments
Other Significant Work

The Department of Energy’s Fiscal Year 2004 Consolidated
Financial Statements
For the sixth consecutive year, the Department received an unqualified audit opinion on its
consolidated financial statements. The OIG conducted the audit pursuant to the
Government Management and Reform Act of 1994 through a contract with the KPMG
LLP accounting firm. KPMG concluded that the Department’s consolidated financial
statements, for the year ending September 30, 2004, present fairly, in all material respects,
the financial position of the Department in conformity with generally accepted accounting
principles. To ensure the quality of the audit, the OIG approved the scope of KPMG’s
assignment, monitored its work, and reviewed the audit report and related work papers for
compliance with auditing standards.

The audit disclosed that the Department met the challenges posed in the President’s
Management Agenda by improving financial reporting and successfully eliminating the
previous year’s reportable condition on performance measurement. Although the
Department made considerable progress toward resolving the prior year’s reportable
condition in unclassified information system security, the audit revealed that the condition
continues to exist. The Department has certain network vulnerabilities and general access
control weaknesses that could put the integrity of financial system data at risk. The
Department concurred with the audit findings and initiated or agreed to initiate specific
corrective actions. The audit opinion will be printed in the Department’s FY 2004
Performance and Accountability Report. (OAS-FS-05-01)


Concerns Regarding Training at the Bonneville Power
Administration and the Savannah River Operations Office
An OIG inspection identified employee training issues at the BPA and the Savannah River
Operations Office (SRO). For example:
   ■   At BPA, student employee training was not fully documented in the established
       management information system, as required by BPA procedures;
   ■   SRO officials lacked adequate documentation to support the award of a sole-source contract
       for training;


                                                17
U . S . D E PA RT M E N T O F E N E R G Y                  OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




   ■   Training costs associated with the sole-source contract appeared excessive when
       compared to courses provided by local accredited universities; and,
   ■   SRO officials did not have employees sign continued service agreements as required
       when a training activity exceeded 160 hours.

We made recommendations designed to enhance the Department’s training program.
(IG-0668)


                                           Headquarters Purchase
                                           Card Practices
                                             An OIG audit found that the Department’s
                                             Headquarters purchase card program was not
                                             always administered in an efficient manner.
                                             Headquarters organizations did not take full
                                             advantage of the electronic system intended to
                                             streamline procurements, and purchase card
                                             controls were not sufficient to prevent or detect
Department of Energy Headquarters at the
James Forrestal facility in Washington, D.C.
                                             violation of policies. In addition, some cardholders
                                             had purchase limits that exceeded their
documented delegation of purchase authority; were not aligned with their demonstrated
needs; or, should have been terminated because they were no longer needed. We made
specific recommendations aimed at strengthening the Department’s controls over Federal
purchase card procurements. (IG-0675)


Concerns Regarding a Non-Viable (Dead) Anthrax Spore Research
Project at the Oak Ridge National Laboratory
An OIG inspection disclosed that a Guest Researcher at the Oak Ridge National Laboratory
(ORNL) was working on an anthrax spore project at a site laboratory without authorization.
We also found that (1) security reviews required to fully implement the Department’s
Integrated Safeguards and Security Management initiative at ORNL were not conducted for
the anthrax spore project and certain other biological projects and (2) the anthrax spores
were not adequately controlled and secured. We made recommendations to management
intended to improve the security of research projects involving biological materials.
(IG-0681)




          Public reports are available in full text on our website at www.ig.doe.gov


                                               18
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Oak Ridge Operations Office Purchase Card Transactions
An OIG inspection concluded that the Oak Ridge Operations Office’s (ORO) internal
controls regarding the purchase card program could be improved. We found two purchases
by a Government purchase cardholder that may have been unauthorized. We also identified
examples of non-compliance with ORO purchase card guidelines. (INS-L-05-03)


                                            Senior Staff Briefs Government
                                            Official from the Republic of Kenya
                                                 On March 7, 2005, our senior staff presented a
                                                 briefing on the history and function of the
                                                 President’s Council on Integrity and Efficiency to
                                                 Mr. Lawrence Orowe, a key Government official
                                                 from the Republic of Kenya. Mr. Orowe, the law
OIG senior staff with Mr. Orowe - seated, center and policy advisor to the Permanent Secretary in
                                                 the Department of Governance and Ethics, was
invited to the United States under the auspices of the State Department’s International
Visitor Leadership Program. We provided Mr. Orowe an overview of the activities of the
President’s Council on Integrity and Efficiency, of which the Inspector General is the Vice
Chair, and of the operations of the Department of Energy. Mr. Orowe expressed special
interest in the operation of the OIG’s investigative function.




External Peer Review
A provision of the Homeland Security Act of 2002 amended the Inspector General Act of
1978 to grant statutory law enforcement authority to all Inspectors General appointed by
the President. This legislation required periodic peer reviews of the offices’ investigative
functions. During this reporting period, the Department of Education, Office of Inspector
General, completed the first peer review of the Department of Energy’s Office of
Investigations and issued a report which concluded that the Office of Investigations was in
full compliance with applicable quality standards.




Congressional Responses
During this reporting period, the OIG received 10 requests for information from Congress,
provided information in 14 instances, and briefed Committee staff on 4 occasions.



                                                 19
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




Results
Highlights of Positive Results Based on
Office of Inspector General Work
During this reporting period, the Department took positive actions as a result of OIG work
conducted during the current or previous periods. Consistent with our findings and
recommendations:
   ■   Management improved its monitoring of the Waste-Management Education and
       Research Consortium Project by defining roles and responsibilities for monitoring the
       project and by requiring the consortium members to submit invoices that align with
       cost information set forth in the annual budget proposals;
   ■   The Department instituted a more rigorous process for measuring performance,
       including establishing the Program Analysis and Evaluation Group and
       implementing the Joule tracking system to perform quarterly monitoring of
       the Department’s performance;
   ■   The Standard Accounting and Reporting System Project Team commenced end-to-end
       integration testing and strengthened application security to address some of the
       challenges facing the Department in its implementation of a new financial system;
   ■   The Department took actions to ensure computer systems are certified and
       accredited as secure for operation by identifying cyber security weaknesses in the
       Plan of Actions and Milestones database and by verifying that weaknesses are
       corrected before being closed;
   ■   The Bonneville Power Administration re-evaluated its automated electricity
       scheduling system options and selected a system that is now expected to meet its
       future transmission scheduling needs;
   ■   The Department issued its interim final rule on processing allegations of research
       misconduct; and,
   ■   The Department negotiated a buyout of the BNFL contract to design, construct
       and operate the Advanced Mixed Waste Treatment Facility in Idaho aided by the
       contract deficiencies, as well as operational and performance problems we identified
       in previous audit reports.




                                                20
OFFICE OF INSPECTOR GENERAL                                U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Qui Tams
Since 1996, the OIG has been instrumental in working with the Department of Justice in
Qui Tam cases. The OIG is currently working on 23 Qui Tam lawsuits involving alleged
fraud against the Government in the amount of approximately $250 million. These cases
are highly resource intensive, requiring the active participation of OIG investigative and
audit assets. However, they have proven to be targets of opportunity within the Department
of Energy with a high return on our investments.


                                            Did you know?
  The False Claims Act (Act) prohibits any person from “knowingly” presenting a “false
  or fraudulent claim for payment or approval” to the Federal Government. The Act
  authorizes individual citizens to bring private suits, referred to as Qui Tam actions, to
  enforce the Act on behalf of the Government.




Management Referral System
The OIG operates an extensive Management Referral System. Under this system, selected
matters received through the OIG Hotline or other sources are referred to the appropriate
Department manager or other Government agency for review and appropriate actions.

The OIG referred 93 complaints to Department management and other Government
agencies during this reporting period and specifically requested Department management to
respond concerning the actions taken on 39 of these complaints. Otherwise, Department
management is asked to respond if it develops information or takes action that it believes
should be reported. The following demonstrates management’s use of OIG-provided
information to stimulate positive change or to take decisive action:
   ■   Alleged incidents of accidental discharge of firearms during security guard training at a
       Department site were reported. The Department site office conducted a review and
       found that, although the contractor had taken appropriate actions in each incident, 50
       additional corrective actions needed to be implemented relating to administrative and
       engineering controls as well as changes in management and training to preclude such
       incidents in the future;
   ■   It was reported that maintenance personnel at a Department site were allegedly exposed
       to asbestos while repairing a door. The management and operating contractor at the
       site conducted an investigation into the root causes of the incident and provided a
       corrective action plan to prevent a recurrence. The cognizant Department operations
       office is monitoring the contractor’s implementation of the plan;



                                                 21
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                        SEMIANNUAL REPORT TO CONGRESS




   ■   Incidents of alleged “reverse discrimination” by contractor management at a
       Department site were reported. The program office’s investigation did not find
       evidence of reverse discrimination, but did find systemic weaknesses related to
       management culture, training, and oversight. The contractor’s General Manager is
       implementing recommended changes that the Department site and program offices are
       monitoring closely;
   ■   A supervisor at a Department site was alleged to have engaged in acts that placed
       protective force officers under his command unnecessarily at risk. An investigation into
       this matter resulted in disciplinary action against the supervisor. He received a corrective
       action plan to improve his leadership performance and relationship skills; and,
   ■   A Department program office was alleged to be misclassifying many of its non-
       technical positions and creating overlapping or duplicative functions and
       responsibilities. A preliminary review by the Department’s Office of Human Capital
       Management found support for the allegation, and the program office was alerted to
       the findings. In the future, the Office of Human Capital Management will continue a
       random review of program office positions followed by a full review including desk
       audits and appropriate corrective actions.



Intelligence Activities
The OIG issued two quarterly report(s) pursuant to Executive Order 12863, “President’s
Foreign Intelligence Advisory Board.” The Order requires the Inspectors General of the
Intelligence Community to report to the Oversight Board concerning intelligence activities
the Inspectors General have reason to believe may be unlawful or contrary to Executive
Order or Presidential directive. No intelligence activities were identified that were contrary
to Executive Order or Presidential directive.



Legislative and Regulatory Review
The Inspector General Act of 1978, as amended, requires the OIG to review and comment
upon legislation and regulations relating to Department programs and to make
recommendations concerning the impact of such legislation or regulations on Departmental
economy and efficiency. The OIG coordinated and reviewed 34 legislative and regulatory
items during the reporting period.



Hotline System
The OIG operates a Hotline System to facilitate the reporting of allegations involving the
programs and activities under the auspices of the Department. During this reporting
period, 882 complaints were processed. The OIG Hotline System can be reached by calling
1-800-541-1625 or 1-202-586-4073.


                                                 22
OFFICE OF INSPECTOR GENERAL                                 U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                    Reports Issued

Audit Reports Issued – October 1, 2004, to March 31, 2005

Report                                                Date of                  Questioned
Number                        Title                    Issue      Savings        Costs
IG-0665          Restoration of the Monticello        10-28-04                  $4,300,000
                 Mill Site at Monticello, Utah
IG-0666          The Los Alamos Neutron               11-30-04 $90,000,000
                 Science Center
IG-0667          Management Challenges at the         11-30-04
                 Department of Energy
IG-0669          Use and Management of Mobile         12-14-04    $1,130,000
                 Communications Services
IG-0670          Well Decommissioning Activities      01-03-05
                 at the Hanford Site
IG-0672          Department of Energy Efforts to      02-03-05
                 Dispose of Hanford’s Chemical
                 Separation Facilities
IG-0673          Transuranic Waste Management at      02-10-05 $72,000,000
                 Los Alamos National Laboratory
IG-0675          The Department’s Federal Purchase    02-11-05
                 Card Program at Headquarters
IG-0676          Department of Energy Contractor      02-14-05 $29,000,000        $955,000
                 Home Office Expenses
IG-0678          Gas Centrifuge Enrichment Plant      03-10-05 $33,000,000
                 Cleanup Project at Portsmouth
IG-0680          The Department’s Pollution           03-17-05 $44,800,000
                 Prevention Program
IG-0683          Fast Flux Test Reactor: Re-evaluation 03-29-05
                 of the Department’s Approach to
                 Deactivation, Decontamination,
                 and Decommissioning



                                                 23
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                SEMIANNUAL REPORT TO CONGRESS




Report                                           Date of                Questioned
Number                    Title                   Issue         Savings   Costs
OAS-M-05-01   Management Controls over           01-25-05
              Transmission Scheduling and
              Usage for Memo Schedule
              Customers of the Bonneville
              Power Administration
OAS-M-05-02   Management Controls over           02-14-05       $659,000
              Western Area Power
              Administration’s Central Valley
              Project Transmission Services
OAS-M-05-03   Management Controls over           03-08-05
              Alternative Financing for Office
              and Support Facilities at Y-12
OAS-L-05-01   Federal Managers’ Financial        12-10-04
              Integrity Act Audit Report
OAS-L-05-02   I-MANAGE STARS                     01-11-05
              Implementation
OAS-L-05-03   Office of Science Security         02-18-05
              Procedures
OAS-L-05-04   Review of the Department’s         03-31-05
              Controls over Services Acquired
              through Memoranda of
              Agreement with Other Federal
              Agencies and Blanket
              Purchase Agreements
OAS-L-05-05   Spallation Neutron                 03-30-05
              Source Project
OAS-V-05-01   Assessment of Changes to the       10-21-04
              Internal Control Structure
              and Their Impact on the
              Allowability of Costs Claimed
              by and Reimbursed to
              Lawrence Berkeley National
              Laboratory Under Department
              of Energy Contract No.
              DE-AC03-76SF00098




                                           24
OFFICE OF INSPECTOR GENERAL                        U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                               Date of            Questioned
Number                           Title                Issue     Savings   Costs
OAS-V-05-02         Assessment of Changes to the     01-28-05
                    Internal Control Structure
                    and Their Impact on the
                    Allowability of Costs Claimed
                    by and Reimbursed to the
                    Lawrence Livermore National
                    Laboratory Under Department
                    of Energy Contract No.
                    W-7405-ENG-48
OAS-V-05-03         Assessment of Changes to the     01-31-05           $95,707,785
                    Internal Control Structure
                    and Their Impact on the
                    Allowability of Costs Claimed
                    by and Reimbursed to
                    Bechtel SAIC Company, LLC
                    Under Department of
                    Energy Contract Numbers
                    DE-AC08-01NV12101,
                    DE-AC08-01RW12101, and
                    DE-AC28-01RW12101
OAS-V-05-04         Assessment of Changes to the     03-15-05
                    Internal Control Structure
                    and Their Impact on the
                    Allowability of Costs Claimed
                    by and Reimbursed to
                    Bechtel Bettis, Inc. Bettis
                    Atomic Power Laboratory
                    Under Department of
                    Energy Contract No.
                    DE-AC11-98PN38206
OAS-V-05-05         Assessment of Changes to the     03-15-05
                    Internal Control Structure
                    and Their Impact on the
                    Allowability of Costs Claimed
                    by and Reimbursed to the
                    Lockheed Martin Corporation
                    Knolls Atomic Power Laboratory
                    Under Department of
                    Energy Contract No.
                    DE-AC12-00SN39357



                                               25
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                 SEMIANNUAL REPORT TO CONGRESS




Report                                           Date of                Questioned
Number                    Title                   Issue         Savings   Costs
OAS-FS-05-01   Department of Energy’s Fiscal      11-9-04
               Year 2004 Consolidated
               Financial Statements
OAS-FS-05-02   Information Technology            11-30-04
               Management Letter on the
               Audit of the Department of
               Energy’s Consolidated Financial
               Statement for Fiscal Year 2004
OAS-FS-05-03   Management Letter on the          01-13-05
               Audit of the Department of
               Energy’s Consolidated Financial
               Statements for Fiscal Year 2004
OAS-FS-05-04   Uranium Enrichment                02-17-05
               Decontamination and
               Decommissioning Fund’s Fiscal
               Year 2004 Financial
               Statement Audit




                                         26
OFFICE OF INSPECTOR GENERAL                        U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Reports Issued –
October 1, 2004, to March 31, 2005


Report Number                 Title                                                                         Date of Issue

INS-L-05-01                   Portable Information Technology Security at                                             11-23-04
                              Selected Department of Energy Facilities
IG-0668                       Concerns Regarding Academic Programs at the                                             12-08-04
                              Bonneville Power Administration and
                              the Savannah River Operations Office
INS-L-05-02*                  Measurement of Spent Nuclear Fuel                                                       01-05-05
                              Returned from Foreign Countries (UCNI)
IG-671**                      Concerns Regarding the Department of                                                    01-18-05
                              Energy’s Counterintelligence Inspection
                              Program (OUO)
IG-0674                       Unauthorized Handguns on                                                                02-11-05
                              the Nevada Test Site
IG-0677                       Security and Other Issues Related to                                                    02-22-05
                              Out-Processing of Employees at
                              Los Alamos National Laboratory
IG-0679**                     Security and Other Issues Related to the                                                03-10-05
                              Shipment of Classified Parts to the
                              Waste Isolation Pilot Plant (OUO)
IG-0681                       Concerns Regarding a Non-Viable                                                         03-24-05
                              (Dead) ‘Anthrax Spore’ Research Project
                              at the Oak Ridge National Laboratory
IG-0682                       The Department of Energy’s Review of Chemical                                           03-24-05
                              and Biological Export License Applications
INS-L-05-03                   Oak Ridge Operations Office                                                             03-24-05
                              Purchase Card Transactions
*Report is not available on the OIG’s website because it contains Unclassified Controlled Nuclear Information (UCNI).
**Report is not available on the OIG’s website because it contains information that is for Official Use Only (OUO).




                                                              27
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                     28
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




                        Statistical Information

Audit Report Statistics – October 1, 2004, to March 31, 2005

The following table shows the total number of operational and financial audit reports and the
total dollar value of the recommendations.

                                            Total            One Time                 Recurring              Total
                                           Number             Savings                  Savings              Savings
Those issued before the                          7       $1,406,635,840             $34,000,000           $1,440,635,840
reporting period for which
no management decision
has been made*
Those issued during the                         29          $371,551,785                           $0      $371,551,785
reporting period
Those for which a                               19          $589,089,770            $28,000,000            $617,089,770
management decision was
made during the
reporting period*
Agreed to by management                                     $182,788,100              $6,000,000           $188,788,100
Not agreed by management                                      $30,179,885           $22,000,000             $52,179,885
Those for which a                               13                          $0                     $0                 $0
management decision is
not required
Those for which no                               4       $1,565,219,640               $6,000,000          $1,571,219,640
management decision has
been made at the end of
the reporting period
*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                              29
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




Audit Report Statistics – October 1, 2004, to March 31, 2005

The following table shows the total number of contract audit reports and the total dollar value of
questioned costs and unsupported costs.

                                                      Total Questioned               Unsupported
                                                     Number   Costs                     Costs
Those issued before the reporting period                 1          $151,354               $0
for which no management decision
has been made
Those issued during the reporting period                 0                  $0             $0
Those for which a management decision was                0                  $0             $0
made during the reporting period
Value of disallowed costs                                                   $0             $0
Value of costs not disallowed                                               $0             $0
Those for which a management decision                    0                  $0             $0
is not required
Those for which no management decision                   1          $151,354               $0
has been made at the end of the
reporting period




Reports Lacking Management Decision
The Department has a system in place to track audit reports and management decisions.
Its purpose is to ensure that recommendations and corrective actions indicated by audit
agencies and agreed to by management are addressed as efficiently and expeditiously as
possible. Listed below are audit reports over 6 months old that were issued before the
beginning of the reporting period and for which no management decisions had been made by
the end of the reporting period. The reasons management decisions had not been made and
the estimated dates (where available) for achieving management decisions are also included.

   ■   Contract Audits
       ER-C-97-01: Report on Interim Audit of Costs Incurred Under Contract No.
       DE-AC24-92OR219721 from October 1, 1994, to September 30, 1995, Fernald
       Environmental Restoration Management Corporation, Fernald, Ohio,
       December 20, 1996 - The finalization of the management decision for this contract




                                                30
OFFICE OF INSPECTOR GENERAL                                  U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




       report is pending the completion of analyses and other actions required to support the
       Contracting Officer’s final determination on the settlement of questioned costs. The
       estimated closure date is December 31, 2005.

   ■   Management Audits
       CR-B-99-02: Management of Unneeded Materials and Chemicals, September 30,
       1999 - The finalization of the management decision for this report is awaiting review
       and concurrence by the necessary Departmental Elements. This should occur by
       June 30, 2005.

       IG-0565: Salt Processing Project at the Savannah River Site, August 27, 2002 -
       The finalization of the management decision for this report is pending the completion
       and approval of the determination for salt waste disposal, in accordance with Section
       3116 of the National Defense Authorization Act for Fiscal Year 2005. This
       determination should occur by September 30, 2005.


Prior Significant Recommendations Not Implemented
As of March 2005, closure actions on recommendations in 33 OIG reports had not been
fully implemented within 12 months from the date of report issuance. This includes actions
on 30 operational, performance, and financial reports and 3 contract reports. The OIG is
committed to working with management to expeditiously address the management decision
and corrective action process, recognizing that certain initiatives will require long-term,
sustained and concerted efforts. The Department has undertaken a series of initiatives to
strengthen its process for addressing recommendations in OIG reports and closed 203
recommendations in the last 6 months. Management updates the Department’s Audit
Reporting and Tracking System on a quarterly basis, most recently in March 2005.
Information on the status of any report recommendation can be obtained through the
OIG’s Office of Audit Services and Office of Inspections and Special Inquiries.




                                               31
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Statistics – October 1, 2004, to March 31, 2005

Inspections/Special Inquiries open at the start of this reporting period                                                        63
Inspections/Special Inquiries opened during this reporting period                                                               23
Inspections/Special Inquiries closed during this reporting period                                                               12
Inspections open at the end of this reporting period                                                                            74
Reports issued (includes non-public reports)                                                                                    14
Report Recommendations*
      Issued this reporting period                                                                                              39
      Accepted by management this reporting period                                                                              37
      Implemented by management this reporting period                                                                           28
Complaints referred to Department management/others                                                                             93
      Referrals to Department management requesting a response for OIG evaluation                                               39
*Includes non-public report recommendations




Hotline Statistics – October 1, 2004, to March 31, 2005

Hotline calls, e-mails, letters, and other complaints                                                                      547*
Hotline calls, e-mails, letters, and other complaints predicated                                                            202
Unresolved Hotline predications from previous reporting period                                                                   6
      Total Hotline predications                                                                                            208
Hotline predications transferred to the Management Referral System                                                              95
Hotline predications closed based upon preliminary OIG activity                                                                 85
Hotline predications pending disposition                                                                                        28
      Total predications processed                                                                                          208
*The figure includes complaints outside the purview of the Office of Inspector General. The complainants were referred to the
appropriate Federal, State, local, or private organization for assistance.




                                                               32
OFFICE OF INSPECTOR GENERAL                                                   U . S . D E PA RT M E N T O F E N E R G Y
                              SEMIANNUAL REPORT TO CONGRESS




Investigative Statistics – October 1, 2004, to March 31, 2005

Investigations open at the start of this reporting period                                                             239
Investigations opened during this reporting period                                                                      52
Investigations closed during this reporting period                                                                      44
Investigations open at the end of this reporting period                                                               247
Qui Tam investigations opened                                                                                             3
      Total open Qui Tam investigations as of 3/31/05                                                                   23
Multi-agency task force investigations opened                                                                           16
      Total open multi-agency task force investigations as of 3/31/05                                                 105
Investigative reports to prosecutors and Department management                                                            5
Recommendations to management for positive change and other actions                                                     18
Administrative discipline and other management actions                                                                  21
Suspensions/Debarments                                                                                                    3
Investigations referred for prosecution                                                                                 14
      Accepted*                                                                                                         14
      Indictments                                                                                                       10
      Criminal convictions                                                                                                6
      Pretrial diversions                                                                                                 0
      Civil actions                                                                                                       4
Fines, settlements, recoveries**                                                                                $21,719,622
*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




                                                                 33
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                           SEMIANNUAL REPORT TO CONGRESS




Feedback Sheet
The contents of the March 2005 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any
suggestions for making the report more responsive, please complete this feedback sheet
and return it to:

          United States Department of Energy
          Office of Inspector General (IG-1)
          Washington, D.C. 20585

          ATTN: Debbie Solmonson



Name: __________________________________________________________________


Daytime Telephone Number: ________________________________________________


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed)




                                              34
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
